No.

IN THE
SUPREME COURT OF THE UNITED STATES

ASTARTE DAVIS
Petitioner
vs.
MOLLY C. DWYER, Clerk UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
RICHARD SEEBORG, Judge UNITED STATES DISTRICT COURT FOR TFIE
NINTH CIRCUIT
Respondents.

PROOF OF SERVICE
I, Astarte Davis, do declare that on this date September 28, 2020, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding as required to be served, by depositing an
enveloper containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
MOLLY C. CWYER, CLERK, U.S. COURT OF APPEALS FOR THE NINTH
CIRCUIT - PO BOX 193939, SAN FRANCISCO, C,A 94119-3939
RICHARD SEEBORG. JUDGE - U.S. DISTRICT COURT. 450 GOLDEN GATE AVE,
SAN FRANCISCO, CA 94102
I declare under penalty of perjury that the foregoing is true andcorrect.
Executed on September 28, 2020

ILjfiA
Astarte Davis

RECEIVED
OCT -6 2020
9i(^IrImfFcTqurtLuRsK

